         Office of Inspector General




December 15, 2005

KEITH STRANGE
VICE PRESIDENT, SUPPLY MANAGEMENT

SUBJECT: Audit Report – New York Metro Area Contract for Labor Relations Issues
         (Report Number CA-AR-06-001)

This report presents the results of our self-initiated audit of a New York Metro Area
(NYMA) contract for labor relations issues (Project Number 05WG011CA000). Our
objective was to evaluate management controls over the award and administration of
the contract and its related modifications.

We found weaknesses in management controls over the award and administration of
the contract. These weaknesses occurred because NYMA Human Resources
personnel reacted to emergency situations without being aware of necessary
contracting requirements. In addition, Supply Management did not have a plan in place
to handle emergency labor relations issues such as those that occurred in the Central
New Jersey and Caribbean Districts. As a result, Postal Service personnel did not
adhere to key procurement requirements and the Postal Service may have paid more
money than was necessary for the services provided.

We recommended management consider alternatives for having suppliers in place for
emergency Human Resources situations and instruct Supply Management personnel to
follow policies and procedures related to the award and administration of contracts. We
also recommended management validate that corrective actions occur. Management
agreed with our recommendations and has initiatives planned that address the issues in
this report. Management’s comments and our evaluation of these comments are
included in this report.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Judy Leonhardt,
Director, Supply Management, or me at (703) 248-2300.
   E-Signed by Mary Demory
ERIFY authenticity with ApproveI



Mary W. Demory
Deputy Assistant Inspector General
 for Headquarters Operations

Attachments
cc: Anthony J. Vegliante
    David L. Solomon
    Steven R. Phelps
New York Metro Area Contract for Labor Relations Issues   CA-AR-06-001




                                   TABLE OF CONTENTS

 Executive Summary                                             i

 Part I

 Introduction                                                  1

     Background                                                1
     Objectives, Scope, and Methodology                        1
     Prior Audit Coverage                                      2

 Part II

 Audit Results                                                 3

     Contract Award and Administration                         3

     Contract Award                                            3
       Unauthorized Contractual Commitment                     3
       Noncompetitive Justifications                           4
       Statements of Work                                      6
       Market Research and Price Analysis                      6
       Key Contract Clauses                                    7
     Recommendations                                           8
     Management’s Comments                                     8
     Evaluation of Management’s Comments                       8

     Contract Administration                                  10
       Contract Payment Processing                            10
       Contracting Officer’s Representative                   10
       Supplier Clearances                                    11
     Recommendations                                          12
     Management’s Comments                                    12
     Evaluation of Management’s Comments                      13

 Appendix. Management’s Comments                              14
New York Metro Area Contract for Labor Relations Issues                             CA-AR-06-001



                                  EXECUTIVE SUMMARY
 Introduction                  This report presents the results of our self-initiated audit of
                               management controls over the award and administration of
                               a contract with 21st Century Consulting Inc. (21st Century).
                               The initial contract amount for work in the Central New
                               Jersey District was $15,000. Eight subsequent
                               modifications expanded the scope of the contract to include
                               work in the Caribbean District and contract authority
                               ultimately reached $638,200.

 Results in Brief              We found weaknesses in management controls over the
                               award and administration of the 21st Century contract.
                               Specifically:

                                   •   21st Century began work before a contract was in
                                       place, creating an unauthorized contractual
                                       commitment.

                                   •   Postal Service personnel did not adequately
                                       document justification to award the contract
                                       noncompetitively.

                                   •   The statements of work did not always describe the
                                       work to be performed in enough detail to price the
                                       contract and modifications, and use as a standard for
                                       measuring performance.

                                   •   Postal Service personnel did not perform market
                                       research or price analysis to ensure the Postal
                                       Service was getting the best value.

                                   •   Supply Management personnel did not ensure that
                                       key contract clauses were included in the contract.

                                   •   Contract payments exceeded contract authority.

                                   •   The contracting officer did not formally appoint a
                                       contracting officer’s representative.

                                   •   Supply Management personnel did not obtain
                                       supplier clearances for contractor personnel.




                                                    i
New York Metro Area Contract for Labor Relations Issues                          CA-AR-06-001




                               These weaknesses occurred because New York Metro Area
                               Human Resources personnel reacted to emergency
                               situations without being aware of the necessary contracting
                               requirements. In addition, Supply Management did not
                               have a plan in place to handle emergency labor relations
                               issues such as those that occurred in the Central
                               New Jersey and Caribbean Districts. For example, Human
                               Resources personnel did not have a list of prequalified
                               suppliers to select from in emergency situations. As a
                               result, they did not comply with key procurement
                               requirements and the Postal Service may have paid more
                               than was necessary for the services provided.

 Summary of                    We recommended that management consider having
 Recommendations               suppliers in place for emergency Human Resources
                               situations and instruct Supply Management personnel to
                               follow policies and procedures related to the award and
                               administration of contracts. We also recommended that
                               management validate that these corrective actions
                               occurred.

 Summary of                    Management agreed with the recommendations. They
 Management’s                  agreed to use this report to engage Human Resources
 Comments                      management to establish appropriate service-wide strategic
                               sources for emergency Human Resources situations. Also,
                               they agreed to cascade the report to all portfolio managers
                               who will be required to review the report and further
                               cascade it within their organizations. However,
                               management stated the Office of Inspector General should
                               direct the findings and recommendations to other
                               appropriate Postal Service organizations. Additionally,
                               management provided views that differed from some of the
                               report’s findings. Management’s comments, in their
                               entirety, are included in the appendix of this report.

 Overall Evaluation of         Management’s planned actions are responsive to the
 Management’s                  recommendations and should correct the issues identified in
 Comments                      the findings. We directed the findings and
                               recommendations to Supply Management because the
                               contracting officer was ultimately responsible for the award
                               and administration of the contract. We believe that
                               establishing appropriate service-wide strategic sources for




                                                   ii
New York Metro Area Contract for Labor Relations Issues                        CA-AR-06-001




                               emergency Human Resource situations and requiring
                               Supply Management personnel to review this report will help
                               alleviate similar deficiencies in the future.




                                                   iii
New York Metro Area Contract for Labor Relations Issues                          CA-AR-06-001



                                        INTRODUCTION
 Background                    In July 2003, the New York Metro Area (NYMA) Human
                               Resources Office became aware of a labor relations issue in
                               the Central New Jersey District. The NYMA Human
                               Resources Office recognized that third-party resolution was
                               needed and contacted 21st Century Consulting Inc.
                               (21st Century), which agreed to provide services.

                               21st Century submitted its first invoice on August 25, 2003.
                               At that time, NYMA Human Resources personnel realized
                               they could not make payments using local buying authority
                               and needed a contract. They contacted the Supply
                               Management Professional Services (Consulting) Category
                               Management Center to develop a contract. Shortly
                               thereafter, the Human Resources Office became aware of a
                               labor relations issue in the Caribbean District. The initial
                               scope of the work was expanded to include services in the
                               Caribbean District and a time, materials, and labor hour
                               contract was signed on October 2, 2003.

                               The initial contract amount was $15,000. Eight subsequent
                               contract modifications increased contract authority to
                               $638,200. Services ended in November 2004 and the final
                               payment was paid in December 2004.

                               On March 22, 2005, Supply Management issued
                               Administrative Instruction SM 2005-014, Higher Level
                               Review of Purchase Actions. This instruction requires a
                               review of each purchase action valued at more than
                               $100,000 to ensure appropriate checks and balances in the
                               purchasing process.

 Objectives, Scope,            The objective of this review was to evaluate management
 and Methodology               controls over the award and administration of the
                               21st Century contract and its related modifications.

                               To accomplish our objective, we interviewed the contracting
                               officer; the manager, Professional, Printing, & Creative
                               Services, Supply Management Category Management
                               Center; the current NYMA human resources manager; the
                               NYMA human resources analyst; and contracts payable
                               personnel at the San Mateo Accounting Service Center.




                                                   1
New York Metro Area Contract for Labor Relations Issues                                                CA-AR-06-001




                                    We obtained and reviewed contract file documentation and
                                    Accounts Payable/Accounts Receivable System (APARS)
                                    and Strategic National Automated Procurement System
                                    (SNAPS) data. We also obtained and reviewed all invoices
                                    associated with the two active 21st Century contracts.1 We
                                    used Postal Service instructions, manuals, policies, and
                                    procedures as criteria to evaluate internal controls.

                                    We conducted this audit from March through
                                    December 2005, in accordance with generally accepted
                                    government auditing standards and included such tests of
                                    internal controls as we considered necessary under the
                                    circumstances. We did not rely on any computer-generated
                                    data to support the opinions or conclusions in this report.
                                    We discussed our observations and conclusions with
                                    management officials and included their comments where
                                    appropriate.

    Prior Audit Coverage            We did not identify any prior audits or reviews related to the
                                    objective of this audit.




1
 In addition to the contract for work in the NYMA, 21st Century was under an additional contract for work in the Great
Lakes Area.



                                                          2
New York Metro Area Contract for Labor Relations Issues                            CA-AR-06-001



                                         AUDIT RESULTS
 Contract Award and              We found weaknesses in management controls over the
 Administration                  award and administration of the 21st Century contract.
                                 These weaknesses occurred because NYMA Human
                                 Resources personnel reacted to emergency situations
                                 without being aware of contracting requirements. In
                                 addition, Supply Management did not have a plan in place
                                 to handle emergency labor relations issues such as those in
                                 the Central New Jersey and Caribbean Districts. For
                                 example, Human Resources personnel did not have a list of
                                 prequalified suppliers to select from in emergency
                                 situations. As a result, they did not meet key procurement
                                 requirements and the Postal Service may have paid more
                                 than was necessary for the services provided.

 Contract Award                  Weaknesses in the contract award process included the
                                 following:

                                     •   21st Century began work before a contract was in
                                         place, creating an unauthorized contractual
                                         commitment.

                                     •   The justification to award the contract
                                         noncompetitively was not adequately documented.
                                         For example, the claim of superior past performance
                                         was not supported.

                                     •   Statements of work (SOWs) did not always describe
                                         the work to be performed in enough detail to price the
                                         contract and modifications or to use as a standard for
                                         measuring performance.

                                     •   There was no market research or price analysis to
                                         ensure that Postal Service was getting the best
                                         value.

                                     •   Key contract clauses were not included in the
                                         contract.

 Unauthorized           The supplier began work three months before a contract
 Contractual Commitment was in place, creating an unauthorized contractual
                        commitment. Specifically, NYMA Human Resources
                        personnel authorized 21st Century to begin work in the




                                                   3
New York Metro Area Contract for Labor Relations Issues                                                 CA-AR-06-001



                                      Central New Jersey District in August 2003. The initial
                                      intent was to pay for the services using local buying
                                      authority.2 However, on August 25, 2003, 21st Century
                                      submitted its first invoice for $15,000 and NYMA Human
                                      Resources personnel realized they could not pay for these
                                      services using local buying authority because the invoice
                                      exceeded the local buying authority limit of $10,000. In
                                      addition, the Administrative Support Manual 13, paragraph
                                      722.31.g, dated July 1999, prohibits the purchase of
                                      professional/technical, consultant, or personal services
                                      using local buying authority. A contract was not signed until
                                      October 2, 2003.

                                      Management Instruction AS-710-1999-2, Unauthorized
                                      Contractual Commitments, dated February 8, 1999, states
                                      that an unauthorized contractual commitment occurs when a
                                      Postal Service employee, who has not been delegated
                                      contracting or local buying authority, by his or her actions
                                      causes another party to provide goods or services. The
                                      instruction provides procedures for ratification.3 These
                                      procedures require the employee who caused the
                                      commitment to forward documentation about the
                                      circumstances to their immediate manager. The manager
                                      and contracting officer then review the information and
                                      determine whether or not to approve the commitment by
                                      ratification. Subsequently, the ratifying official either
                                      approves or disapproves the ratification.

                                      NYMA Human Resources and Supply Management
                                      personnel did not meet the requirements for ratifying an
                                      unauthorized contractual commitment. As a result, no one
                                      reported the unauthorized contractual commitment to Postal
                                      Service for proper ratification.

    Noncompetitive                    Supply Management personnel required NYMA Human
    Justifications                    Resources personnel to prepare a justification for awarding
                                      the contract noncompetitively. A single justification was
                                      used for multiple contract modifications, which expanded
                                      the scope of the work. However, NYMA Human Resources
                                      did not document the justification in accordance with Postal
                                      Service policy.


2
  Local buying authority is the right to buy and pay for day-to-day operational needs without coordinating with Supply
Management.
3
  Ratification is the process by which unauthorized contractual commitments are formalized, approved, and paid.



                                                           4
New York Metro Area Contract for Labor Relations Issues                                              CA-AR-06-001



                                     Management Instruction PM-2.1.6-2002-2, Noncompetitive
                                     Purchases, dated April 18, 2002, requires management to
                                     document the decision to make a noncompetitive purchase
                                     in a business case and include it in the contract file. The
                                     business case must address the applicable business
                                     scenario,4 the extent and result of market research
                                     performed, discussion as to whether the purchase team
                                     believes that future purchases of goods and services should
                                     be made noncompetitively, and discussion of any other
                                     issues that should be considered in the interest of sound
                                     and effective purchasing.

                                     The noncompetitive justification included the following
                                     statements that other contract file documentation did not
                                     fully support:

                                          •   The Postal Service used the supplier previously and
                                              with much success in a similar labor relations
                                              situation. Internal supplier ratings indicated that
                                              21st Century had two performance ratings of 2.67
                                              and one performance rating of 2.89 out of a possible
                                              5.0 on three other contracts the past performance
                                              database identified.

                                          •   The supplier’s successful, cutting-edge
                                              methodologies were unsurpassed.

                                          •   The supplier provided training and consultation to
                                              groups specializing in multicultural diversity
                                              programming and sexual harassment prevention and
                                              intervention.

                                          •   In an effort to expedite the current situation, the
                                              Postal Service contacted the supplier who indicated
                                              they would be available immediately.

                                          •   The supplier was a subject matter expert in this field.

                                          •   The supplier maintained a superior working
                                              knowledge of the Postal Service's policies,
                                              procedures, and goals.


4
  The four general business scenarios outlined in the management instruction include compelling business interests,
industry structure or practice, single source, and superior performance.



                                                         5
New York Metro Area Contract for Labor Relations Issues                           CA-AR-06-001



                                 NYMA Human Resources personnel stated that they were
                                 reacting to emergency situations and needed immediate
                                 assistance. They also stated that other Postal Service
                                 personnel recommended using 21st Century. They did not
                                 at any time consider using other suppliers who could
                                 potentially provide similar services at a better value.

 Statements of Work              The SOWs did not always describe the work to be
                                 performed in enough detail to price the contract and
                                 modifications or to use as a standard for measuring
                                 performance. For example, the initial SOWs did not detail
                                 the tasks to be performed or the timeframes for performance
                                 of tasks. Rather, the statements provided that the work
                                 would be at the direction of the NYMA Human Resources
                                 manager.

                                 The Purchasing Manual, Issue 2, paragraph 2.3.1.b, dated
                                 January 31, 2002, states that the Postal Service generally
                                 uses SOWs when purchasing a service rather than an end
                                 product and they must describe the work as precisely as
                                 practicable and in enough detail to allow a best value
                                 decision. SOWs are the standard for measuring
                                 performance and both parties use them to determine rights
                                 and obligations under the contract.

                                 NYMA Human Resources personnel stated that they
                                 wanted to keep the SOWs simple, nondescriptive, and
                                 flexible for both the supplier and the Postal Service.
                                 However, without detailed SOWs, the Postal Service did not
                                 have a standard for measuring the supplier’s performance.

 Market Research and             Postal Service personnel did not conduct market research
 Price Analysis                  and price analysis prior to contract award. Postal Service
                                 personnel did not document the basis for determining that
                                 contract prices were fair and reasonable.

                                 The Purchasing Manual, Issue 2, paragraph 2.1.4.a, dated
                                 January 31, 2002, states that market research is central to a
                                 sound purchase planning. Market research helps determine
                                 what supplies or services are available, what suppliers are
                                 available, how to best state requirements, and whether price
                                 or cost estimates are realistic; and identifies commodity or
                                 industry trends. Paragraph 5.1.1.b.1 requires the purchase
                                 team to ensure that contract prices are fair and reasonable
                                 by evaluating proposed prices using price analysis or cost



                                                   6
New York Metro Area Contract for Labor Relations Issues                              CA-AR-06-001



                                 analysis and by pricing each contract separately and
                                 independently without consideration for proposed price
                                 reductions, profits, or losses under other contracts.

                                 The contracting officer determined that pricing was fair and
                                 reasonable due to the multiple services provided to the
                                 Postal Service and the similarity to rates in the market
                                 place. He said he did not do any market research or price
                                 analysis, but that NYMA Human Resources personnel might
                                 have. He also stated that he did not give much pricing
                                 consideration to, what was at that time, a $15,000 contract.
                                 However, NYMA Human Resources personnel said that
                                 since the Postal Service had used this vendor successfully
                                 in the past, they did not conduct any market research or
                                 price analysis.

                                 As a result, there was no evidence that the Postal Service
                                 received fair and reasonable prices for the work performed.

 Key Contract Clauses            Supply Management personnel did not ensure that key
                                 contract clauses were included in the basic contract or the
                                 contract modifications. While contract clauses are generally
                                 included at the discretion of the purchase team, some
                                 clauses must be included because of the type of contract
                                 used; the commodity being purchased; or other policies,
                                 laws, or Executive Orders. Specifically, Supply
                                 Management personnel omitted the following clauses,
                                 required by Purchasing Manual, Issue 2, Appendix B, dated
                                 January 31, 2002, and its modifications:

                                     •   Clause 2-38 is required for all time, materials, and
                                         labor hour contracts. This clause requires the
                                         supplier to substantiate vouchers by evidence of
                                         actual payment and by individual daily job timecards
                                         or other substantiation approved by the contracting
                                         officer. The contractor did not always provide
                                         supporting documentation for invoices. In addition,
                                         this clause requires the supplier to establish a ceiling
                                         price which they exceed at their own risk.

                                     •   Clause 6-1 is required for all contracts that have a
                                         contracting officer’s representative (COR) assigned.
                                         This clause states that the contracting officer may
                                         appoint a COR, responsible for the day-to-day
                                         administration of the contract, who will serve as the



                                                   7
New York Metro Area Contract for Labor Relations Issues                             CA-AR-06-001



                                         Postal Service’s point of contact with the supplier on
                                         all routine matters. The Postal Service did not
                                         formally appoint a COR for the 21st Century contract.
                                         However, NYMA Human Resources personnel
                                         performed many of the duties typically associated
                                         with the COR position (e.g., the certification of
                                         invoices for payment).

                                 The contracting officer did not ensure that all appropriate
                                 contract clauses were included in the contract. As a result,
                                 NYMA Human Resources personnel and 21st Century did
                                 not perform some contract administration activities in
                                 accordance with Postal Service policy.

 Recommendation                  We recommend the vice president, Supply Management:

                                     1. In coordination with the chief Human Resources
                                        officer and executive vice president, consider
                                        alternatives—such as prequalifying suppliers or
                                        awarding multiple ordering agreements—to have
                                        suppliers in place for emergency Human Resources
                                        situations.

 Management’s                    Management agreed with the recommendation and, within
 Comments                        30 calendar days following receipt of the final report, will use
                                 it to engage Human Resources management to establish
                                 appropriate service-wide strategic sources for emergency
                                 Human Resources situations.

 Evaluation of                   Management’s comments are responsive to the
 Management’s                    recommendation and planned actions should correct the
 Comments                        issues identified in the finding.

 Recommendation                  We recommend the vice president, Supply Management:

                                     2. Instruct the Professional Services (Consulting)
                                        Category Management Center to follow policies and
                                        procedures related to unauthorized contractual
                                        commitments, noncompetitive justifications,
                                        statements of work, market research and price
                                        analysis, and contract clauses.




                                                   8
New York Metro Area Contract for Labor Relations Issues                            CA-AR-06-001




 Management’s                    Management agreed with the recommendation and, within
 Comments                        30 calendar days following receipt of the final report, will
                                 cascade it to all portfolio managers. The portfolio managers
                                 will be required to review the report and further disseminate
                                 it within their organizations. Management stated that the
                                 issues related to unauthorized contractual commitment and
                                 SOW should be primarily directed to the NYMA office. They
                                 also stated that documentation concerning noncompetitive
                                 justifications, SOW, and market research and price analysis
                                 was sufficient. Additionally, they stated that clause 6-1 is
                                 only included in a contract when a contracting officer
                                 determines a need to issue a formal appointment letter for a
                                 COR and a formal appointment letter was not necessary for
                                 this contract.

 Evaluation of                   Management’s comments are responsive to the
 Management’s                    recommendation and planned actions should correct the
 Comments                        issues identified in the finding. We directed the finding and
                                 recommendation to Supply Management because the
                                 contracting officer was ultimately responsible for the award
                                 and administration of the contract. In addition, we do not
                                 believe that the documentation concerning noncompetitive
                                 justifications, SOW, and market research and price analysis
                                 was sufficient. We modified the report to state that clause
                                 6-1 is required for all contracts that have a COR. We
                                 believe management should have included that in the
                                 contract and, as noted in the contract administration finding,
                                 formally appointed a COR.




                                                   9
New York Metro Area Contract for Labor Relations Issues                            CA-AR-06-001




 Contract                      Weaknesses in the contract administration process included
 Administration                the following:

                                   •   Contract payments exceeded contract authority.

                                   •   The contracting officer did not formally appoint a
                                       COR.

                                   •   Supply Management personnel did not obtain
                                       supplier clearances for all contractor personnel.

 Contract Payment              The Postal Service processed two 21st Century invoices
 Processing                    (totaling $42,000) for work on the NYMA Human Resources
                               contract against contract authority for another 21st Century
                               contract in the Great Lakes Area. When we brought this
                               matter to the attention of Postal Service personnel, they
                               stated that the error occurred when an accounting clerk
                               processed a batch of invoices for multiple contracts at the
                               San Mateo Accounting Service Center. Supply
                               Management personnel stated that the San Mateo
                               Accounting Service Center was responsible for tracking
                               payments on this contract.

                               To partially correct the errors, the invoice for $22,000 was
                               processed against the NYMA Human Resources contract,
                               bringing the amount paid on the contract to $638,134.99.
                               The NYMA Human Resources contract had only $65.01 in
                               remaining funding, which was not enough to cover the
                               remaining invoice for $20,000. At the time of our review,
                               Postal Service personnel stated that circumstances did not
                               warrant creation of a contract modification to correct the
                               accounting error. As a result, contract payments exceeded
                               contract authority by $19,934.99.

 Contracting Officer’s         As previously discussed, the contracting officer did not
 Representative                formally appoint a COR. The initial SOW identified the
                               former manager, NYMA Human Resources, as the COR.
                               The current manager indicated that she was responsible for
                               routine interaction with 21st Century. However, a NYMA
                               Human Resources analyst performed typical COR
                               responsibilities such as certifying and submitting invoices for
                               payment. While the manager was somewhat familiar with
                               COR responsibilities, the analyst was not aware of what a
                               COR was or what their responsibilities entailed.


                                                   10
New York Metro Area Contract for Labor Relations Issues                             CA-AR-06-001




                               The Purchasing Manual, Issue 2, paragraph 4.4.3.a, dated
                               January 31, 2002, states that the contracting officer may
                               designate (by name and position title) Postal Service
                               employees to serve as CORs. A COR is authorized to take
                               actions related to the award and administration of specified
                               contracts. Designations must be in writing and clearly
                               specify the contracts or types of contracts over which the
                               COR has delegated authority.

                               In addition, Management Instruction PM 610-2001-1,
                               Contracting Officer’s Representative Program, dated April 3,
                               2001, states that the contracting officer must appoint the
                               COR through a letter of designation that details
                               responsibilities and limitations, specifies COR recordkeeping
                               requirements, and requires adherence to various standards
                               of ethical conduct. It also states that CORs must receive
                               training to ensure they are fully aware of their responsibilities
                               and the limits of their authority. Trained CORs enhance the
                               probability of good contract administration and reduce the
                               risk of unauthorized expenditures and contract changes.

                               The Postal Service may have prevented noted weaknesses
                               in contract administration if they had formally designated
                               and trained individuals performing COR functions and fully
                               informed them of their duties and responsibilities. As
                               previously noted, Supply Management personnel approved
                               some invoices for payment without adequate support.
                               Additionally, they did not require 21st Century to submit
                               travel vouchers and they did not require receipts to support
                               invoiced travel reimbursements.

 Supplier Clearances           Postal Service personnel did not ensure that supplier
                               clearances were obtained for contractor personnel. The
                               contractor requested and received domicile office space as
                               well as access to the Postal Service facilities and computer
                               network.

                               The Purchasing Manual, Issue 2, paragraph 1.6.11.a,
                               January 31, 2002, states that the Administrative Support
                               Manual requires the Postal Service to grant clearances to all
                               individuals before they perform services, have access to
                               occupied Postal Service facilities, or use Postal Service
                               information and resources, including Postal Service
                               computer systems. The contracting officer and the purchase



                                                   11
New York Metro Area Contract for Labor Relations Issues                            CA-AR-06-001



                               team determine, with the concurrence of the Postal
                               Inspection Service, when a clearance requirement exists.

                               In addition, the Administration Support Manual 13,
                               paragraph 272.331, dated July 1999, states that
                               organizations requiring contract support and contracting
                               officers review the scope of work to determine whether the
                               nature of the work requires contracted individuals to have a
                               clearance. At the time of the contract award, the contracting
                               officer, the COR, or a designee provides the contractor with
                               the required clearance forms and receives the forms upon
                               completion.

                               Handbook AS-805, Information Security, paragraph 6-2.3,
                               March 2002, states that contracting officers are responsible
                               for confirming the employment status and clearance of all
                               contractors requesting access to information resources.

                               NYMA Human Resources and Supply Management
                               personnel were not familiar with the security clearance
                               requirements for contractor personnel. As a result, 21st
                               Century contractor personnel had access to Postal Service
                               facilities, information, and resources without proper
                               clearances.

 Recommendation                We recommend the vice president, Supply Management:

                                   3. Instruct the Professional Services (Consulting)
                                      Category Management Center to follow policies and
                                      procedures related to contract payments, contracting
                                      officer’s representatives, and supplier clearances.

 Management’s                  Management agreed with the recommendation and, within
 Comments                      30 calendar days following receipt of the final report, will
                               disseminate it to all portfolio managers. The portfolio
                               managers will be required to review the report and further
                               cascade it within their organizations. Management stated
                               the Office of Inspector General should direct the issue
                               related to contract payment processing to the San Mateo
                               Accounting Service Center and direct the issue related to
                               supplier clearances to the NYMA office.




                                                   12
New York Metro Area Contract for Labor Relations Issues                            CA-AR-06-001




 Evaluation of                 Management’s comments are responsive to the
 Management’s                  recommendation and planned actions should correct the
 Comments                      issues identified in the finding. We did not direct the
                               recommendation to the San Mateo Accounting Service
                               Center because center personnel corrected the deficiencies
                               to the extent possible. Also, we did not direct the
                               recommendation to the NYMA because, as noted in the
                               criteria, the contracting officer was responsible for ensuring
                               that contractors obtain proper security clearances.

 Recommendation                We recommend the vice president, Supply Management:

                                   4. Validate that the Professional Services (Consulting)
                                      Category Management Center has rectified the
                                      deficiencies detailed in this report.

 Management’s                  Management agreed with intent of the recommendation and,
 Comments                      within 30 calendar days following receipt of the final report,
                               will disseminate it to all portfolio managers. The portfolio
                               managers will be required to review the report and further
                               cascade it within their organizations.

 Evaluation of                 Management’s comments are responsive to the
 Management’s                  recommendation and planned actions should correct the
 Comments                      issues identified in the finding.




                                                   13
New York Metro Area Contract for Labor Relations Issues   CA-AR-06-001



                    APPENDIX. MANAGEMENT’S COMMENTS




                                                   14
New York Metro Area Contract for Labor Relations Issues   CA-AR-06-001




                                                   15
New York Metro Area Contract for Labor Relations Issues   CA-AR-06-001




                                                   16
New York Metro Area Contract for Labor Relations Issues   CA-AR-06-001




                                                   17
